oN

CQCKLE

2311 Douglas Street L ] Bri f E-Mail Address:
€ tl
Omaha, Nebraska 68102-1214 ga Est € on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fan: (402) 342-4850 No, 21-57

LEVI FRASIER,
Petitioner,

v.
CHRISTOPHER L. EVANS et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of August, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMIC] CURIAE FIRS'T AMENDMENT SCHOLARS
IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case. Ail parties required to be served have
been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MATTHEW R. CUSHING TINA R. VAN BOCKERN
Instructor, Appellate Counsel of Record
Advocacy Practicum JONATHAN §. BENDER
UNIVERSITY OF COLORADO. THOMAS A, MORALES
LAW SCHOOL HOLLAND & HART LLP
2450 Kittredge Loop Road 555 17th Street, Suite 3200
Boulder, CO 80309 Denver, CO 80202
(303) 735-6554 (303) 295-8000
matthew.cushing@ trvanbockern@hollandhart.com
colorado.edu jsbender@hollandhart.com

tamorales@hollandhart.com

Subscribed and sworn to before me this 13th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GEWERAL MOTARY-State of Mebeaska ue Chby
RENEE J. GOSS DO. ( dec abreaer- ‘

Notary Public Affiant 4148

Wy Gorm. Exp, September §, 2023

 
Jeffrey L. Fisher

Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way

Stanford, CA 94305-8610

(650) 724-7081

jifisher@law.stanford.edu

Counsel of Record for Petitioner Levi Frasier

Wendy J. Shea

Denver City Attorney's Office

201 W. Colfax Avenue

Department 1108

Denver, CO 80202-5332

(720) 913-3112

wendy.shea@denvergov.org

Counsel of Record for Respondents Christopher L. Evans,
Charles C. Jones, John H. Bauer, Russell Bothwell, and John
Robledo
